  U.S. DEPARTMENT OF LABOR
OFFICE OF INSPECTOR GENERAL




   Audit of the State of Nevada
   Grant Number E4R9002525




                         U.S. Department of Labor
                         Office of Inspector General
                         Report No. 09-00-004-06-601
                         Date: September 11, 2000
                                TABLE OF CONTENTS




EXECUTIVE SUMMARY                                            1


INTRODUCTION                                                 2


OBJECTIVES, SCOPE AND METHODOLOGY                            3


ASSISTANT INSPECTOR GENERAL’S REPORT                         4


FINDING AND RECOMMENDATIONS                                  6
      Inaccurate Program Reporting                           6


EXHIBIT A                                                    9
     Statement of Audited Costs (Financial Status Report)
            Fiscal Year Ended September 30, 1999             9


APPENDIX A                                                  10
     State of Nevada Comments on Draft Report               10
         ACRONYMS


CFR    Code of Federal Regulations

DOL    U.S. Department of Labor

FY     Fiscal Year

MSHA   Mine Safety and Health Administration

OMB    Office of Management and Budget

OIG    Office of Inspector General
                                  EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), performed a financial,
compliance and program results audit of Grant Number E4R9002525 awarded to the State of Nevada.
The audit covered Fiscal Year (FY) 1999 (October 1, 1998 through September 30, 1999) as reported
to the Mine Safety and Health Administration (MSHA) on the Financial Status Report (Exhibit A).

Financial and Compliance Results

Our audit disclosed that the Financial Status Report was fairly presented and the State of Nevada
materially complied with rules and regulations that would have a direct effect on the Financial Status
Report.

Program Results

We found that the State did not accurately report program results to MSHA. The State overstated the
total number of people trained by 10 percent. However, even with the corrected numbers, the State
exceeded their performance goals for the year.

We recommend that the Assistant Secretary for Mine Safety and Health direct the State to:

•       Submit revised program reports to accurately reflect program results and the achievement of
        grant goals.

•       Improve its system of developing and reporting program data.

State of Nevada’s Comments

On August 29, 2000, the State of Nevada provided written comments on the draft report. The
comments are included in their entirety in Appendix A.

Overall, the State agreed with the finding and recommendations presented in the draft report. The
State’s response stated that it was transmitting revised program reports to accurately reflect program
results and the achievement of grant goals. In addition, the State indicated that it was modifying its
system of developing and reporting program data on an ongoing basis.

OIG Evaluation of State of Nevada’s Comments

We concur with the State’s comments and voluntary corrective actions. No further action is necessary.
These two recommendations are resolved and closed.


                                                   1
                                        INTRODUCTION

Background

Congress enacted the Federal Mine Safety and Health Act of 1977 to establish interim mandatory
health and safety standards to protect the health and safety of the nation’s miners.

Mine safety and health programs are authorized under Section 503 of the Federal Mine Safety and
Health Amendments Act of 1977, as amended. The Secretary of Labor, in coordination with the
Secretary of Health, Education, and Welfare, and the Secretary of the Interior is authorized to make
grants to any State in which coal or other mining takes place to provide assistance to the States in the
development and enforcement of effective State coal or other mine health and safety programs.

On November 9, 1998, MSHA awarded a grant to the State of Nevada for $154,980 covering Fiscal
Year (FY) 1999. The State agreed to provide matching funds of $38,745 resulting in a total project
amount of $193,725. The grant’s purpose was to provide continued support of the project entitled
“Provide Assistance to Nevada Mine Operations and Workers through Consultation and Training.”

The grant’s goals for FY 1999 included training 2,439 employed metal and nonmetal miners, 401
contract miners, and 70 other persons requesting training, for a total of 2,910 planned trainees.

Principal Criteria

•       Federal Mine and Safety and Health Act of 1977, Public Law 91-173, as amended by Public
        Law 95-164, Section 503.

•       29 Code of Federal Regulations (CFR), Part 97: Uniform Administrative Requirements for
        Grants and Cooperative Agreements to State and Local Governments.

•       30 CFR, Part 48: Training and Retraining of Miners.

•       Office of Management and Budget (OMB) Circular A-87: Cost Principles for State, Local and
        Indian Tribal Governments.




                                                    2
                  OBJECTIVES, SCOPE AND METHODOLOGY

The Office of Inspector General conducted a financial, compliance and program results audit of Grant
Number E4R9002525 awarded to the State of Nevada. The audit covered FY 1999 (October 1,
1998, through September 30, 1999). Our audit was performed in accordance with generally accepted
auditing standards and Government Auditing Standards issued by the Comptroller General of the
United States. Our audit included such tests of the accounting records and program reports and other
auditing procedures we considered necessary in the circumstances.

Financial and Compliance Audit

The primary objective of our financial audit was to express an opinion on the costs reported on the
closeout Financial Status Report. We obtained an understanding of the State’s internal controls and
tested its compliance with laws and regulations that could have a material effect on the Financial
Status Report.

Program Results Audit

The primary objective of our program results audit was to determine whether the State achieved the
grant goals and accurately reported program results to MSHA.

We obtained copies of the FY 1999 Mid-Year Technical Progress Report and End-Year Technical
Accomplishment Report. We reviewed the State’s supporting documentation for the program reports
and recalculated the number of persons trained as reported in the various report categories. We
compared the recalculated program results to the grant’s goals.

Entrance/Exit Conferences

We held our entrance conference with the State’s Administrator of the Department of Business and
Industry and other staff on May 30, 2000. We conducted our field work between May 30 and July 6,
2000. We held our exit conference on August 4, 2000.




                                                   3
Mr. J. Davitt McAteer
Assistant Secretary
 for Mine Safety and Health
Mine Safety and Health Administration
4015 Wilson Boulevard
Arlington, Virginia 22203

                         ASSISTANT INSPECTOR GENERAL’S REPORT
                            ON THE FINANCIAL STATUS REPORT

We have audited the accompanying Financial Status Report for the year ended
September 30, 1999 (Exhibit A). This statement is the responsibility of the State’s management. Our
responsibility is to express an opinion on the Financial Status Report.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the costs claimed in
the Financial Status Report are free of material misstatements. An audit includes examining, on a test
basis, evidence supporting the costs claimed. An audit also includes assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall presentation of the
costs reported. We believe our audit provides a reasonable basis for our opinion.

Opinion on Financial Statement

In our opinion, the State’s Financial Status Report presents fairly in all material respects the financial
results of Grant Number E4R9002525 for the period October 1, 1998, through September 30, 1999,
in accordance with the grant agreement, MSHA regulations and OMB Circular A-87.

Report on Internal Controls

In planning and performing our audit of the costs claimed, we considered the State’s internal controls to
determine our auditing procedures for the purpose of expressing our opinion on the costs reported and
not to provide assurances on internal controls. Our consideration of internal controls would not
necessarily disclose all matters in the internal control structure that might be material weaknesses. A
material weakness is a condition in which the design or operation of one or more of the specific internal
control components does not reduce to a relatively low level the risk that errors or irregularities in
amounts that would be material in relation to the Financial Status Report being audited may occur and
not be detected within a timely period by employees in the normal course of performing their assigned
functions.




                                                     4
However, we noted no matters involving the internal controls over the financial reporting and its
operation that we consider to be material weaknesses, as defined above.

Report on Compliance with Laws and Regulations

Compliance with laws and regulations applicable to this grant, as well as to the provisions of the grant
agreement itself, is the responsibility of the State’s management. As part of obtaining reasonable
assurance about whether the costs claimed are free of material misstatements, we performed tests of
the State’s compliance with certain provisions of laws, regulations, and contracts/grants, noncompliance
with which could have a direct and material effect on the Financial Status Report. However, our
objective was not to provide an opinion on overall compliance with such provisions. Accordingly, we
do not express such an opinion.

The results of our tests disclosed no instances of material noncompliance.

Program Results

We found that the program results provided to MSHA were not accurate. The State overstated the
total number of people trained by 10 percent. Even with the corrected numbers, however, the State
exceeded its performance goals for the year. The Finding and Recommendations section of this report
discusses the details of this finding.

                                *       *       *        *

This report is intended solely for the information and use of the State and MSHA and is not intended to
be, and should not be, used by anyone other than these specified parties.




____________________________________
John J. Getek
Assistant Inspector General
 for Audit

July 6, 2000




                                                    5
                       FINDING AND RECOMMENDATIONS

Inaccurate Program Reporting

The State did not accurately report program results to MSHA on the Mid-Year Technical Progress
Report and End-Year Technical Accomplishment Report. State officials told us that this occurred
because MSHA changed its reporting requirements after the State’s database used to accumulate the
training information was programmed.

To report program performance, the State records attendance for each class on a Record of Training
form. The State then enters information from the source Record of Training forms into a computerized
database. The State uses the database to prepare the program reports required by MSHA.

Federal regulations at 29 CFR § 97.40 require grantees to submit performance reports which compare
actual accomplishments to the objectives established for the reporting period. MSHA provided
reporting instructions to the State in a memorandum dated April 29, 1999, for the Mid-Year Technical
Progress Report, and in a memorandum dated September 13, 1999, for the End-Year Technical
Accomplishment Report. These instructions implicitly require the performance reports to reflect
accurate results.

However, the State did not accurately count the number of persons trained for either the Mid-Year
Technical Progress Report or the End-Year Technical Accomplishment Report in total or by category.
For example, the State did not separately count other persons trained despite MSHA’s reporting
instructions. The following table shows the reported numbers and the numbers according to our audit.




                                                  6
                          Report Period                    Miners Trained
                                                       Per State        Per Audit

                   Mid-Year Report                        934               858

                   End-Year Report                       1,605            1,445
                   Total Miners                          2,539            2,303

                                                         Contractors Trained

                   Mid-Year Report                        569               404

                   End-Year Report                        663               407

                   Total Contractors                     1,232              811

                                                            Others Trained
                   Mid-Year Report                         0                181

                   End-Year Report                         0                134

                   Total Others                            0                315
                   GRAND TOTALS                          3,771            3,429



As the table shows, the State reported a total of 3,771 persons trained. Our audit tests showed a total
of 3,429 persons trained. The State overstated its accomplishments but it actually achieved 118
percent of its performance goals versus the reported 130 percent.

Recommendations

We recommend that the Assistant Secretary for Mine Safety and Health direct the State to:

•       Submit revised program reports to accurately reflect program results and the achievement of
        grant goals.

•       Improve its system of developing and reporting program data.

State of Nevada’s Comments



                                                   7
On August 29, 2000, the State of Nevada provided written comments on the draft report. The
comments are included in their entirety in Appendix A.

Overall, the State agreed with the finding and recommendations presented in the draft report. The
State’s response stated it was transmitting revised program reports to accurately reflect program results
and the achievement of grant goals. In addition, the State indicated that it was modifying its system of
developing and reporting program data on an ongoing basis.

OIG Evaluation of State of Nevada’s Comments

We concur with the State’s comments and voluntary corrective actions. No further action is necessary.
These two recommendations are resolved and closed.




                                                    8
                                                                                       EXHIBIT A


                              State of Nevada
             Statement of Audited Costs (Financial Status Report)
                   Fiscal Year Ended September 30, 1999
                         Grant Number E4R9002525



                        Transactions                               Costs Reported
    Federal Share of Outlays                                                 $154,980

    Recipient Share of Outlays                                                $ 38,745

    Total Outlays                                                            $193,725

    Total Unliquidated Obligations                                            $ 3,8401

    Recipient Share of Unliquidated Obligations                                        0

    Federal Share of Unliquidated Obligations                                 $ 3,840
    Total Federal Share                                                      $158,820

    Total Federal Funds Authorized
    For This Funding Period                                                  $158,8201

    Unobligated Balance of Federal Funds                                               0




1
      Includes $3,840.00 for the development of a virtual reality haulage program. The State had
      previously been granted an extension to liquidate this obligation through FY 99. The State has
      requested an additional extension to liquidate this obligation.

                                             9
              APPENDIX A
State of Nevada Comments on Draft Report




                   10
